TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Expanded Access to Wage and Withholding
                   Information Can Improve Identification of
                            Fraudulent Tax Returns



                                      September 30, 2010

                              Reference Number: 2010-40-129




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 2(f) = Risk Circumvention of Agency Regulation or Statute

 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                     HIGHLIGHTS


EXPANDED ACCESS TO WAGE AND                             estimates that the IRS needlessly expended
WITHHOLDING INFORMATION CAN                             22,110 hours screening these tax returns.
IMPROVE IDENTIFICATION OF                               Currently, the law limits IRS access to the
FRAUDULENT TAX RETURNS                                  United States Department of Health and Human
                                                        Services wage information. In addition,
                                                        processes have not been developed to expedite
Highlights                                              the use of wage and withholding data received
                                                        from the Social Security Administration.
Final Report issued on September 30,                    In addition, TIGTA found that the majority of tax
2010                                                    returns the IRS identifies as being filed by
                                                        prisoners are not being sent to screening to
Highlights of Reference Number: 2010-40-129             assess fraud potential. Our review identified
to the Internal Revenue Service Commissioner            253,929 (88 percent) of the 287,918 tax returns
for the Wage and Investment Division.                   filed by a prisoner as of March 24, 2010, were
IMPACT ON TAXPAYERS                                     not selected for screening. Of those tax returns
                                                        not screened, 48,887 individuals had no wage
As of April 17, 2010, the Internal Revenue              information reported to the IRS by employers.
Service (IRS) identified 249,185 tax returns with       These 48,887 prisoners claimed refunds totaling
$1.51 billion being claimed in fraudulent refunds.      more than $130 million including Earned Income
While the IRS has shown a significant increase          Tax Credit (EITC) claims of $78.5 million. Some
in the number of fraudulent tax returns identified      of these refunds may have been stopped by
and refunds stopped, it needs expanded and              other compliance activities. For example,
expedited access to wage and withholding                TIGTA determined that the IRS prevented the
information to assist in its efforts.                   issuance of nearly $18.1 million in EITC claims
                                                        for 4,532 of the 48,887 prisoner tax returns.
WHY TIGTA DID THE AUDIT
                                                        WHAT TIGTA RECOMMENDED
This audit was initiated because unscrupulous
individuals continue to submit tax returns with         Legislation is needed to expand IRS access to
false income documents to the IRS for the sole          the United States Department of Health and
purpose of receiving a fraudulent refund. In            Human Services wage information. TIGTA
October 2009, the IRS transferred responsibility        recommended that the Commissioner, Wage
for its pre-refund fraudulent tax return detection      and Investment Division, obtain wage
activities to its Accounts Management function.         information for ***2(f)*** returns with EITC
Management noted that transferring these                claims and develop a process to expedite the
activities will capitalize on opportunities to          availability of wage and withholding information
complete this work more efficiently. Our overall        received from the Social Security Administration.
objective was to assess the IRS’ Taxpayer               The Commissioner should also verify whether
Assurance Program processes to identify                 the 48,887 tax returns with tax refunds that were
potentially fraudulent tax returns for screening.       filed by prisoners with no reported wages were
                                                        fraudulent and identify revisions that could be
WHAT TIGTA FOUND                                        made to data mining criteria to better identify
Expanded and expedited access to wage and               fraudulent tax returns filed by prisoners.
withholding information would significantly             In their response to the report, IRS officials fully
increase the IRS’ ability to more efficiently and       agreed with three recommendations and
effectively verify wage and withholding                 partially agreed with the other. The IRS plans to
information reported on a tax return when               first examine the benefits of obtaining wage
processed. Our analysis of the 151,776 Tax              information for ***2(f)*** returns with EITC
Year 2008 tax returns sent to an examiner for           claims prior to implementing any process
screening and then released for processing              modifications.
identified that 96,178 (63 percent) of these tax
returns had valid wages reported. TIGTA
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 30, 2010


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Expanded Access to Wage and Withholding
                             Information Can Improve Identification of Fraudulent Tax Returns
                             (Audit # 201040003)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) Taxpayer
 Assurance Program processes to identify potentially fraudulent tax returns for screening. This
 audit is included in our Fiscal Year 2010 Annual Audit Plan and addresses the major
 management challenge of Erroneous and Improper Payments and Credits.
 IRS management disagreed with our computation of potential savings from expanded and
 expedited access to Social Security Administration (SSA) data. The IRS raises concerns
 regarding the completeness of SSA data received early in the filing season. We agree that the
 volume of SSA data received increases as the filing season progresses. However, as detailed in
 our report, the IRS begins receiving SSA wage and withholding information on a daily basis in
 late January *************************2(f)**************************************
 *********************************2(f)************************.
 In addition, management disagreed with our potential savings related to our recommendation on
 improving verification of prisoner tax returns. Management indicated that verification of
 prisoner tax returns must be weighed against available IRS resources. We agree that post-refund
 compliance efforts are costly and the IRS has limited resources. This is precisely the reason we
 recommended the IRS identify revisions that could be made to its screening process to stop
 fraudulent refunds from being sent to prisoners at the time tax returns are processed. Our
 outcome measure reflects the potential revenue that could be protected at the time tax returns are
 processed.
 Finally, the IRS disagreed with our revenue protection outcome measure related to the 2,716 tax
 returns that resulted in $6.7 million in erroneous refunds being issued for tax returns in which
 examiners confirmed fraud potential. The IRS provided no explanation to support its
                     Expanded Access to Wage and Withholding Information
                      Can Improve Identification of Fraudulent Tax Returns



disagreement. In our opinion, there is no basis for IRS’ disagreement as the IRS has initiated or
plans to initiate programming changes that once in place will prevent the release of the types of
erroneous refunds we identified. Our outcome measure reflects the amount of revenue that will
be protected once this programming has been completed.
Management’s complete response to the draft report is included in Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services), at (202) 622-5916.




                                                                                                    2
                             Expanded Access to Wage and Withholding Information
                              Can Improve Identification of Fraudulent Tax Returns




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Expanded Access to Wage and Withholding Information
          Would Improve Identification of Fraudulent Tax Returns ........................... Page 4
                    Recommendations 1 and 2: .............................................. Page 8

                    Recommendation 3:........................................................ Page 9

          Improvements Are Needed to More Effectively Identify
          and Stop Fraudulent Refunds ........................................................................ Page 9
                    Recommendation 4:........................................................ Page 11

          Some Fraudulent Tax Returns Were Not Retained for
          Possible Use As Evidence .................................................................... Page 12

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 14
          Appendix II – Major Contributors to This Report ........................................ Page 17
          Appendix III – Report Distribution List ....................................................... Page 18
          Appendix IV – Outcome Measures............................................................... Page 19
          Appendix V – Management’s Response to the Draft Report ....................... Page 22
       Expanded Access to Wage and Withholding Information
        Can Improve Identification of Fraudulent Tax Returns




                   Abbreviations

CADE         Customer Account Data Engine
EFDS         Electronic Fraud Detection System
EITC         Earned Income Tax Credit
HHS          Health and Human Services
IRS          Internal Revenue Service
NDNH         National Directory of New Hires
OMM          Operation Mass Mail
SSA          Social Security Administration
TAP          Taxpayer Assurance Program
                         Expanded Access to Wage and Withholding Information
                          Can Improve Identification of Fraudulent Tax Returns




                                             Background

In January 1977, the Internal Revenue Service (IRS) established a nationwide, multifunctional
detection program designed to identify fraudulent tax returns and prevent the payment of
fraudulent refunds. However, unscrupulous individuals continue to submit tax returns with false
income documents to the IRS for the sole purpose of
receiving a fraudulent refund. On October 11, 2009, the
IRS transferred responsibility for its pre-refund              The IRS Taxpayer Assurance
                                                                Program is responsible for
fraudulent tax return detection activities from its
                                                                 identifying fraudulent tax
Criminal Investigation Division to its Accounts              returns and stopping the release
Management function. Subsequent to the transfer, the             of fraudulent tax refunds.
IRS renamed its fraud detection program to the
Taxpayer Assurance Program (TAP).
The TAP is responsible for identifying fraudulent tax returns and stopping the release of the
related refunds. IRS management noted that transferring detection, verification activities, and
resources to the Accounts Management function will capitalize on opportunities to complete this
work more efficiently and allow the Criminal Investigation Division to use resources on the
development of fraudulent refund schemes.1

The Electronic Fraud Detection System (EFDS) is used to identify potentially
fraudulent tax returns
The EFDS is the primary tool used by the IRS to identify potentially fraudulent tax returns. The
EFDS includes a process called “data mining,” which uses various formulas to identify
potentially fraudulent paper and electronically filed tax returns. Suspicious paper and
electronically filed tax returns are identified based on specific characteristics of the tax return.
An associated data mining score (risk that tax return is fraudulent) is computed for the tax return.
The higher the data mining score given to a tax return, the greater the likelihood that the tax
return is fraudulent. Those potentially fraudulent tax returns that meet the IRS criteria (data
mining score and refund amount) are then forwarded to TAP examiners for screening.




1
  Schemes involve people who engage in, facilitate, or promote tax fraud (e.g., claiming fictitious deductions on tax
returns).
                                                                                                              Page 1
                         Expanded Access to Wage and Withholding Information
                          Can Improve Identification of Fraudulent Tax Returns



The TAP screening process is designed to identify potentially fraudulent tax
returns for verification
Screening individual tax returns to identify potentially fraudulent tax returns is the
first step in the IRS’ pre-refund fraud detection process. Once a questionable tax
return is identified, the following takes place:
    •     A hold is placed on the individual’s tax account for 2 weeks to prevent the issuance of
          any refund. This delay allows TAP examiners to evaluate the tax return for fraud
          potential.
    •     The tax return is assigned to a TAP examiner for screening. The examiner reviews the
          income and withholding information reported on the tax return including comparing the
          information reported on the current tax year2 return to previous tax year returns to
          identify inconsistencies. If the TAP examiner concludes that the tax return is potentially
          fraudulent, the tax return is sent for verification. Verification is the process in which
          TAP examiners attempt to contact the employer to confirm wages and withholding
          detailed on the Wage and Tax Statement (Form W-2) and/or Miscellaneous Income
          (Form 1099-MISC) associated with the potentially fraudulent tax return. For those tax
          returns determined as having no fraud potential, the tax return is released for processing
          and issuance of any associated tax refund.
Figure 1 provides statistical information on tax returns screened and/or verified for Processing
Years 2008 through 2010.
        Figure 1: Comparison of Screening and Verification Results for the Filing
                    Season3 in Processing Years 2008 Through 2010
                                   Tax Returns           Tax Returns           Tax Returns
                     Filing          Sent to               Sent to              Verified as
                     Season         Screening            Verification          Fraudulent
                      2008            287,318               255,688               154,648
                      2009            243,907               200,477               113,740
                      2010           326,398             232,634          127,868
                 Source: Questionable Refund Program Workload Comparison Summary Report
                 for Processing Years 2008 through 2010.

This review was performed at the Wage and Investment Division Office of Customer Account
Services in Atlanta, Georgia, and the TAP office in Austin, Texas, during the period January


2
  The tax year for most individual tax returns covers a calendar year, which is the 12 months from January 1 through
December 31.
3
  The filing season is the period from January through mid-April when most individual income tax returns are filed.
                                                                                                            Page 2
                    Expanded Access to Wage and Withholding Information
                     Can Improve Identification of Fraudulent Tax Returns



through July 2010. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                      Page 3
                          Expanded Access to Wage and Withholding Information
                           Can Improve Identification of Fraudulent Tax Returns




                                         Results of Review

Expanded Access to Wage and Withholding Information Would
Improve Identification of Fraudulent Tax Returns
As of April 17, 2010, the IRS had identified 249,185 tax returns with $1.51 billion being claimed
in fraudulent refunds and was able to prevent the issuance of $1.48 billion (98 percent) of the
fraudulent refunds being claimed. This represents a 50 percent increase in the number of
                                       fraudulent tax returns identified as of this same period last
      As of April 17, 2010, the IRS
                                       processing year. This increase is in part the result of the
       prevented the issuance of       Accounts Management function effectively monitoring
       $1.48 billion in fraudulent     workload and adjusting data mining tolerances during the
              tax refunds.             filing season to increase the identification of potentially
                                       fraudulent tax returns for screening. For example, the
Accounts Management function lowered the data mining tolerances for 17 of the 25 EFDS data
mining models through March 5, 2010, to increase the number of potentially fraudulent tax
returns for screening. As of April 17, 2010, a total of 326,398 tax returns were identified for
screening which represented a 34 percent increase of tax returns identified for screening when
compared to the same period last processing year.
While the IRS has shown a significant increase in the number of fraudulent tax returns identified
and refunds stopped, it needs expanded and expedited access to wage and withholding
information during the filing season. This information would significantly increase the IRS’
ability to more efficiently and effectively verify wage and withholding information reported on a
tax return at the time a tax return is processed.

The law limits IRS access to the United States Department of Health and Human
Services wage information
The United States Department of Health and Human Services (HHS) maintains the National
Directory of New Hires (NDNH). The NDNH is a national repository of wage and employment
information. NDNH data contain quarterly wage information submitted by Federal agencies and
State workforce agencies to the HHS. The Social Security Act4 and Federal regulations5 require
wage information on individual employees be provided to the HHS within 4 months of the end of
a calendar quarter. The following information for each individual is required:


4
    42 United States Code Section 653.
5
    45 CFR Section 303.108(c).
                                                                                             Page 4
                           Expanded Access to Wage and Withholding Information
                            Can Improve Identification of Fraudulent Tax Returns



      •    Name.
      •    Social Security Number.
      •    Wage Amount.
      •    Reporting Period (calendar quarter in which wages were paid).
      •    Employer Name.
      •    Employer Address.
However, the law only allows the IRS to access NDNH wage information for tax returns in
which the individual is claiming the Earned Income Tax Credit (EITC). The Social Security
Act6 grants authority to the Secretary of the Treasury to obtain quarterly wage information from
the NDNH for the purpose of administering the EITC and the advance payment of EITC, and
verifying claims with respect to employment on a tax return. NDNH wage information assists
the TAP examiner in determining whether the refund and EITC claim associated with the tax
return are fraudulent. The TAP examiner compares the wages reported to the HHS against what
is included on the tax return and if the wage amounts are not consistent, the TAP examiner will
send the tax return to an examiner for wage and withholding verification.
Despite the authority provided under the Social Security
Act, *****************2(f)*********************
*******************2(f)**********************                 Although the law grants the IRS
********************************************                    the authority to obtain NDNH
                                                              wage information for tax returns
*********************************************                  with EITC claims,*****2(f)*******
**************************. As of April 17, 2010,              ************************************
approximately 2.3 million Tax Year 2009 tax returns                ******************************.
were filed ***2(f)***and included more than $4.3 billion
in claims for the EITC.
************************************2(f)************************************
****************************************************************************
****************************************************************************
********************************** In addition, the IRS continues to explore alternatives
such as the development of an automated verification process that would compare the wage
information on the tax return with the NDNH wage information. ***2(f)*****************
************************************2(f)************************************
****************************************************************************
****************************************************************************
********************************************.


6
    42 United States Code Section 653(i)(3).
                                                                                                Page 5
                     Expanded Access to Wage and Withholding Information
                      Can Improve Identification of Fraudulent Tax Returns



Legislation has been repeatedly proposed to expand IRS access to NDNH wage data. Most
recently, the IRS Fiscal Year 2010 budget request again included a legislative proposal to
strengthen tax administration by expanding IRS access to NDNH information. The proposal
would revise 42 United States Code Section 653(i)(3) by deleting the phrase “Section 32 of” and
deleting all verbiage after “1986.” The amended section would read as follows:
       The Secretary of the Treasury shall have access to the information in the
       National Directory of New Hires for purposes of administering the Internal
       Revenue Code of 1986.
If enacted, the legislation would expand IRS access to much needed wage information. In
addition, granting the IRS expanded access is in line with Executive Order 13520 on Reducing
Improper Payments. This Executive Order outlines the President’s directive to improve
information sharing among agencies with the goal of reducing improper payments. Expanding
IRS access to NDNH wage information would enable the IRS to improve its identification of
fraudulent tax returns and stop associated fraudulent refunds while reducing resources expended
on verifying tax returns with no fraud potential.

*************************************2(f)*****************************************************
****************************************************************************************
The IRS begins receiving wage and withholding information in late January each year from the
SSA. **************************2(f)******************************************
*****************2(f)**************. Our discussions with representatives from the SSA
identified that during the 2010 Filing Season, the IRS began receiving Form W-2 wage and
withholding information on a daily basis on January 23, 2010. **************2(f)*********
********************2(f)*****************************************************
*************************************************.
As shown in Figure 2, the IRS could benefit from expediting the availability of SSA wage and
withholding information on the EFDS because this information could be used to ensure tax
returns with valid wages are not being screened needlessly. TAP examiners could use this
information as it is being received from the SSA to improve the efficiency and effectiveness of
the IRS process to identify potentially fraudulent tax returns.




                                                                                             Page 6
                                    Expanded Access to Wage and Withholding Information
                                     Can Improve Identification of Fraudulent Tax Returns



Figure 2: Cumulative Tax Year 2009 Wage Documents Processed by the SSA and
        Tax Returns Processed by the IRS During the 2010 Filing Season

       200
                                                                                                                                                 183.4      184.1
                                                                                                                                      178.3

                                                                                                                        154.8
       150
                                                                                                             143.5
                                                                                                  128.5
    Millions
                                                                                                                                                          98.5
                                                                                       105.8                                                  86.8
       100                                                                                                                      79.8
                                                                                                                     73.2
                                                                                                          66.9
                                                                          76.0                 60.7
                                                                                 54.1
                                                                      47.1
                                                           39.3
         50                                      31.5
                                    21.8                       42.6
                           10.1                     24.4
               3.6
                                           9.6
          0          0.3      2.0
               1/23        1/30      2/6         2/13      2/20       2/27       3/6           3/13       3/20       3/27       4/3           4/10        4/17
                                                                             Week Ending


                                            Cumulative Tax Returns Processed            Cumulative Wage Documents Processed


Source: SSA Progress Report on Posting Wage Items for 2009 and IRS Returns Transaction File.

Expanded access to wage and withholding information could enable the IRS to
transfer resources used for screening to other compliance efforts
Expanded and expedited access to wage and withholding information would allow the IRS to
eliminate its screening process and send potentially fraudulent tax returns directly to verification.
Our analysis of the 151,776 Tax Year 2008 tax returns sent to a TAP examiner for screening and
then released for processing (TAP examiner concluded no fraud potential) identified that
96,178 (63 percent) of the screened tax returns had valid wages reported. We estimate that the
IRS needlessly expended 22,110 hours screening these tax returns only to conclude that the tax
returns were not fraudulent. As shown in Figure 3, transferring these 22,110 hours would allow
the IRS to transfer resources totaling $329,4397 to other compliance activities.




7
  The $329,439 in available funding for staffing was calculated by multiplying the 22,110 hours by $14.90 per hour
(the hourly wage for a General Schedule-5 tax examiner).
                                                                                                                                                         Page 7
                         Expanded Access to Wage and Withholding Information
                          Can Improve Identification of Fraudulent Tax Returns



          Figure 3: Transferring Resources for Additional Compliance Efforts

                                    Description                                             Results
      Tax Returns Screened                                                                  326,398
      Average Tax Returns Screened per Hour                                                     9
      Percent We Determined to Have Valid Wages on Tax Return – No
                                                                                              63%
      Fraud Potential
     Hours That Could Be Transferred to Other Compliance Activities8                    22,110
    Source: Treasury Inspector General for Tax Administration analysis of Tax Year 2008 tax return data
    and IRS Calendar Year 2010 reports through the end of the 2010 Filing Season.

Legislative Recommendation
Recommendation 1: As put forth in the IRS Fiscal Year 2010 budget proposal,
legislation is needed to expand IRS access to NDNH wage information for tax
administration purposes not limiting use of this information to just those tax returns
with a claim for the EITC.
         Management’s Response: IRS management agreed with this
         recommendation. Legislation which will expand the use of data in the NDNH
         to returns without the EITC was included in the President’s Fiscal Year 2011
         budget. On April 9, 2010, the IRS met with HHS officials to brief them on the
         proposal. The IRS will continue to follow the progress of the proposed
         legislation. The IRS is analyzing the benefits the NDNH data will have on the
         TAP and the potential for other compliance efforts.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 2: Obtain NDNH wage information for individuals claiming the EITC on
***2(f)*** tax returns.
         Management’s Response: IRS management partially agreed with this
         recommendation. They will examine the benefits of obtaining NDNH information for
         individuals claiming the EITC on ***2(f)***tax returns, including the effect on cycle
         time and improved accuracy of verification. If NDNH information expedites the



8
 Because of rounding, the 22,110 hours that could be transferred to other compliance activities will not equal the
326,398 tax returns screened multiplied by 63 percent and divided by 9 tax returns screened per hour.
                                                                                                             Page 8
                         Expanded Access to Wage and Withholding Information
                          Can Improve Identification of Fraudulent Tax Returns



         scanning process and increases the accuracy of determinations, the IRS will consider a
         plan to request the data for ***2(f)***and the associated process modifications.
Recommendation 3: Develop a process to expedite the availability of wage and withholding
information received from the SSA for use by the EFDS and TAP examiners in the identification
of potentially fraudulent tax returns.
         Management’s Response: IRS management agreed with this recommendation.
         They continue to take strategic steps to accelerate access to information return data
         toward goals of refund verification at time of filing and upfront issue detection. The IRS
         has already initiated a pilot project to accelerate its access to SSA wage data. The IRS is
         working with the SSA to analyze the costs and benefits of accelerated transfer,
         perfection, and integration of SSA data into IRS systems.
         Office of Audit Comment: The IRS disagreed with the potential savings associated
         with expanding and expediting access to SSA data, and raised concerns regarding the
         completeness of SSA data received early in the filing season. We agree that the volume
         of SSA data received from the SSA increases as the filing season progresses. However,
         the IRS begins receiving SSA data on a daily basis in late January ***2(f)***********
         *****************************2(f)***************************************
         *****************************

Improvements Are Needed to More Effectively Identify and Stop
Fraudulent Refunds
Improvements can be made to more effectively identify potentially fraudulent tax returns filed by
prisoners. We found that the majority of tax returns identified as being filed by prisoners are not
sent to a TAP examiner for screening to assess the potential that the tax return is fraudulent. Our
review identified that 253,929 (88 percent) of the 287,918 tax returns identified by the IRS
through March 24, 2010,9 as having been filed by a prisoner were not selected for screening.
Using prisoner Social Security Numbers, we matched the file the IRS obtained from the SSA
with wage and withholding information and identified that 48,887 of the prisoners filing these
tax returns had no wage information reported by employers. These 48,887 individuals claimed
refunds totaling more than $130 million, including EITC claims of $78.5 million. Some of these
refunds may have been stopped by other compliance activities. For example, we determined that
the IRS prevented the issuance of EITC claims of nearly $18.1 million for 4,532 of the
48,887 prisoner tax returns.10 However, it should be noted that the identification of erroneous

9
  We were only able to obtain the data extract for tax returns processed on the EFDS through March 24, 2010.
10
   To determine whether the prisoners had actually earned wages in Tax Year 2009, we excluded 26,805 prisoners
filing as married filing jointly because the income could have resulted from the individual who was not incarcerated.
We matched the Social Security Numbers for the remaining 225,851 tax returns not sent to screening to the
Form W-2 information the IRS received from the SSA.
                                                                                                             Page 9
                        Expanded Access to Wage and Withholding Information
                         Can Improve Identification of Fraudulent Tax Returns



EITC claims for these 4,532 individuals was caught via IRS compliance efforts and not its
TAP process that is supposed to identify fraudulent refunds when the tax returns are received.
In Fiscal Year 2005, the Treasury Inspector General for Tax Administration conducted an audit
to determine the effectiveness of IRS procedures for detecting potentially fraudulent prisoner
refund tax returns.11 Our review concluded that there may be other fraudulent prisoner tax
returns of which the IRS is not aware. The total number of tax returns screened is based on two
factors: 1) the likelihood that fraud is present and 2) the availability of resources to work the
cases. Each refund tax return is given a “data mining score” based on certain criteria. The
higher the score, the greater the chance the refund could be fraudulent. The Criminal
Investigation Division also used other criteria to screen tax returns. The number of tax returns
screened is based on these criteria and the resources available. If a tax return filed by a prisoner
does not meet these criteria, it will not be reviewed to determine if it is fraudulent.
The IRS continues to identify tax returns filed by prisoners during tax return processing.
However, the IRS has established selection criteria that result in the majority of these tax returns
never being sent to screening to assess fraud potential. Following a Treasury Inspector General
for Tax Administration report on First-Time Homebuyer Credit fraud,12 the IRS in a
June 23, 2010, release urged Congress to pass legislation giving the agency up-to-date prisoner
information and pledged to take other steps to reduce improper claims of the credit by prisoners.
We agree that up-to-date prisoner information would enable the IRS to better identify tax returns
filed by prisoners. However, we have concerns about whether the IRS is effectively using the
prisoner information it currently receives. We have initiated an audit to further analyze and
evaluate IRS efforts to identify tax returns filed by prisoners and its attempts to reduce prisoner
fraud.

Controls are not preventing issuance of tax refunds when tax returns are
screened and identified as being potentially fraudulent
Our review identified 2,716 tax returns that resulted in $6.7 million13 in erroneous refunds being
issued for tax returns in which TAP examiners confirmed fraud potential requiring verification of
wage and withholding information. Specifically, we found:
     •   Tax refunds in excess of the amount of the EITC claimed being erroneously
         refunded - We identified 2,451 screened tax returns sent to verification through
         April 17, 2010, that were also sent to pre-refund examination as a result of filters


11
   The Internal Revenue Service Needs to Do More to Stop the Millions of Dollars in Fraudulent Refunds Paid to
Prisoners (Reference Number 2005-10-164, dated September 28, 2005).
12
   Additional Steps Are Needed to Prevent and Recover Erroneous Claims for the First-Time Homebuyer Credit
(Reference Number 2010-41-069, dated June 17, 2010).
13
   Because of rounding, the total amount of $6.7 million does not equal the two separately rounded amounts of
$5.4 million and $1.4 million when added together.
                                                                                                        Page 10
                         Expanded Access to Wage and Withholding Information
                          Can Improve Identification of Fraudulent Tax Returns



         identifying the EITC as a probable erroneous claim. However, the amount of the refund
         in excess of the EITC claimed ($5.4 million) did not remain frozen until a TAP examiner
         verified the wages and withholding. We brought this concern to management’s attention
         on March 2, 2010. On March 11, 2010, management stated that a computer
         programming change request had been submitted to prevent the release of the tax refunds
         in excess of the EITC for those cases sent to both verification and pre-refund examination
         beginning in Processing Year 2011.
     •   Tax refunds for tax returns processed through the Customer Account Data Engine
         (CADE)14 being erroneously issued – We identified 265 tax returns processed through
         the CADE that were screened and sent to verification through April 17, 2010, in which
         the refunds were issued prior to a TAP examiner verifying wages and withholding.
         These tax refunds totaled approximately $1.4 million. We advised management of this
         issue on March 2, 2010. On April 15, 2010, management responded that a system
         programming change was implemented to prevent future tax refunds from releasing for
         CADE-processed tax returns.

Recommendation
The Commissioner, Wage and Investment Division, should:
Recommendation 4: Verify whether the 48,887 tax returns with tax refunds that were filed
by prisoners with no reported wages were fraudulent. Based on actions taken on these cases, the
Commissioner should identify revisions that could be made to data mining criteria to better
identify fraudulent tax returns filed by prisoners.
         Management’s Response: IRS management agreed with this recommendation.
         They will work with the Small Business and Self-Employed Division to review these
         48,887 returns for potential inclusion in IRS post-refund compliance efforts. These
         returns will be sampled and reviewed to identify improvement opportunities for their data
         mining models. In addition, the IRS is evaluating an improved process to acquire and
         manage prisoner information from Federal and State prison systems.
         Office of Audit Comment: The IRS disagreed with our potential savings related to
         improving verification of prisoner tax returns. Management indicated that verification of
         prisoner tax returns must be weighed against available IRS resources. We agree that
         post-refund compliance efforts are costly and the IRS has limited resources. However,
         our outcome measure reflects the potential revenue that could be protected at the time tax


14
  The CADE is a major component of the IRS Modernization program. It consists of current and planned databases
and related applications that work with the IRS Master File. The Master File is the IRS database that stores various
types of taxpayer account information. This database includes individual, business, and employee plans and exempt
organizations data.
                                                                                                           Page 11
                        Expanded Access to Wage and Withholding Information
                         Can Improve Identification of Fraudulent Tax Returns



         returns are processed if improvements are made to data mining criteria to better identify
         fraudulent tax returns filed by prisoners. Further, the IRS disagreed with our outcome
         measure related to erroneous refunds being issued for tax returns in which examiners
         confirmed fraud potential. The IRS provided no explanation to support its disagreement.
         In our opinion, there is no basis for the IRS’ disagreement as the IRS has initiated or
         plans to initiate programming changes that once in place will prevent the release of the
         types of erroneous refunds we identified. Our outcome measure reflects the amount of
         revenue that will be protected once this programming has been completed.

Some Fraudulent Tax Returns Were Not Retained for Possible Use As
Evidence
As of April 7, 2010, the IRS reported that it identified a total of 43,067 fraudulent Operation
Mass Mail (OMM) tax returns and stopped $296 million in associated fraudulent tax refunds.
These fraudulent tax returns are part of an extensive tax refund fraud scheme. ***2(f)*******
************************2(f)**************************************************
*************************. These fraudulent tax returns were first identified in Processing
Year 1999 by the IRS Fraud Detection Center at the Brookhaven Campus15 and involved
fraudulent tax refunds in the Bronx, New York, area. Since then, OMM schemes have spread to
other States. Generally, OMM tax returns are identified when received by the IRS and prior to
tax return processing. As a result, most OMM tax returns are not processed by the IRS.
Procedures instruct IRS employees to destroy unprocessed OMM tax returns without any
retention period after inputting limited information into a computerized database. On
April 22, 2010, we issued an email alert to the Director, Customer Account Services, Wage and
Investment Division, expressing our concerns with the destruction of OMM tax returns. We
recommended that a decision be obtained from the Records and Information Management
Services Program office as to the filing and retention of unprocessed OMM tax returns and
recommended that OMM tax returns be retained for a period consistent with the statute of
limitations on fraud against the Government because these tax returns could be used as potential
evidence in a civil or criminal case. In addition, we requested management to provide us with a
detailed explanation as to the process developed and used to verify the accuracy of tax return
volumes and refund dollars being reported as part of their OMM accomplishments.

Management Actions
     •   May 13, 2010 – Management initially responded that the Accounts Management function
         is working in conjunction with the Chief Counsel’s Office, Criminal Investigation
         Division, and the Servicewide Records Officer to consider the proper disposition of these

15
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                        Page 12
                        Expanded Access to Wage and Withholding Information
                         Can Improve Identification of Fraudulent Tax Returns



         tax returns and that pending a final determination, necessary actions have been taken to
         retain these OMM tax returns.
     •   June 17, 2010 – Management responded that, effective immediately, the Accounts
         Management function would retain paper OMM tax returns for disposition to the Federal
         Records Center for a period of 5 years to provide an audit trail to ensure credibility of the
         program results. In addition, the Accounts Management function will work with the
         records retention officer to ensure retention and purge time periods for OMM tax returns
         are established and documented appropriately. Management commented that they
         initially followed the required procedures to obtain a decision regarding the filing and
         retention of OMM tax returns and that IRS Chief Counsel concluded that unprocessed tax
         returns are not Federal records which must be retained. However, management explained
         that even when not required by law, the IRS retains documents submitted by taxpayers
         and filers as needed to support effective tax administration.
In addition, management responded that a number of actions were taken to ensure the accuracy
of OMM data, including data matching and consistency checks between the OMM tax return
information contained in the database and the Integrated Data Retrieval System.16 Our limited
review of the database showed entries with incomplete or blank fields. Management
acknowledged that mismatches were identified with a small number of records in the OMM
database. However, the mismatches were addressed and the database was modified to improve
the accuracy and completeness of the OMM tax return information. Because of management
actions taken during our review, we are making no recommendations at this time.




16
  IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
                                                                                                         Page 13
                         Expanded Access to Wage and Withholding Information
                          Can Improve Identification of Fraudulent Tax Returns



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the IRS’ TAP processes to identify potentially
fraudulent tax returns for screening. To accomplish this objective, we:
I.      Determined whether the EFDS is operating as intended.
        A. Assessed whether all tax returns that should be sent through the EFDS were in fact
           processed through the EFDS.
             1. Reviewed the EFDS User Manual and other system documentation to identify the
                criteria for EFDS processing.
             2. Obtained an extract from the EFDS containing all tax returns scored by the
                System and matched the records against the Returns Transaction File1 containing
                all tax returns posting to Master File2 during Processing Year 2010. We
                conducted tests to assess the reliability of data, including comparing the volume
                of records on the extract to IRS tax return filing statistics for Processing
                Year 2010 and ensuring that the data extracted met the required criteria.
             3. Determined the volume and refund amounts for the tax returns that should have
                been processed through the EFDS but were not and measured the impact on tax
                administration.
             4. Identified the number of tax returns not processed through the EFDS as intended
                based on established EFDS selection by querying the Returns Transaction File for
                the 2010 Filing Season and measured the impact on tax administration.
        B. Assessed whether all tax returns meeting the screening selection criteria are being
           included in the screening inventory as intended.
             1. Obtained EFDS tolerances (data mining and refund amount) established for
                screening selection during the 2010 Filing Season.3
             2. Analyzed the EFDS extract obtained in Step I.A.2. and determined whether tax
                returns meeting EFDS data mining scoring and refund tolerances were included in
                the screening workload.

1
  A file that contains data for individual tax returns and accompanying forms and schedules processed by the IRS.
2
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
3
  The filing season is the period from January through mid-April when most individual income tax returns are filed.
                                                                                                           Page 14
                         Expanded Access to Wage and Withholding Information
                          Can Improve Identification of Fraudulent Tax Returns



        C. Assessed whether the EFDS is identifying all prisoner tax returns and sending them to
           screening if meeting the data mining tolerance.
             1. Obtained a copy of the prisoner data file for Processing Year 2010.
             2. Compared the data file to the EFDS extract obtained in Step I.A.2. and
                determined if all prisoner tax returns included a prisoner indicator.
II.     Determined if the screening process is effective and efficient.
        A. Evaluated the use of HHS wage information by the TAP to prevent refund fraud for
           tax returns claiming the EITC.
             1. Reviewed the process by which States collect wage information from employers
                and forward it to the HHS.
             2. Identified the content of the wage information collected and determined if it
                includes withholding information and nonemployee compensation.
             3. Reviewed HHS Inspector General reports to determine whether any reports were
                issued assessing the accuracy and completeness of the wage information provided
                by the States.
             4. Determined the potential impact on tax administration where ***2(f)*******
                ***************2(f)********************************.
        B. Identified the volume of tax returns that could systemically bypass the screening
           process based upon more current reporting of wage and withholding information to
           the IRS.
             1. Obtained a Master File computer extract of all Tax Year 2008 tax returns that
                were screened and refiled and screened and verified “good.” We conducted tests
                to assess the reliability of data, including verifying the data against amounts
                reflected on the Integrated Data Retrieval System.4
             2. Matched the file obtained in Step II.B.1. against the Tax Year 2008 Wage and
                Tax Statement (Form W-2) file and compared the wage and withholding
                information for both the primary and secondary Social Security Numbers.
             3. Determined the volume of tax returns that could have bypassed the screening
                process for both categories (tax returns screened and refiled, and tax returns
                screened and verified “good”) based upon consistent wage information reported
                by the employer.


4
  IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
                                                                                                             Page 15
                        Expanded Access to Wage and Withholding Information
                         Can Improve Identification of Fraudulent Tax Returns



        C. Identified the staffing resources that could be shifted to other compliance activities
           based upon the reduction in the screening workload determined in Step II.B.
III.    Determined whether the TAP will have sufficient resources to effectively identify and
        stop fraudulent refunds in Processing Year 2010.
        A. Reviewed the staffing by activity for each TAP site and assessed the proficiency of
           staffing, availability of workstations, and effectiveness of management to ensure the
           quality of the screening process.
        B. Reviewed program performance measures and quality review techniques and
           procedures established for the screening process.
        C. Identified management information reports and reviewed managerial requirements for
           monitoring the caseload and evaluating the efficiency and effectiveness of the
           screening process.
        D. Assessed any impact to the program resulting from the transition due to a decrease in
           the number of tax returns screened, the number of tax returns referred for verification,
           the number of tax returns verified false, and the amount of refunds stopped.
        E. Assessed whether internal controls were effective to prevent the release of the refund
           after the tax returns were selected for screening during the 2010 Filing Season.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: Accounts Management function TAP
policies, procedures, and practices for screening potentially fraudulent tax returns in campus5
operations. We evaluated these controls during the audit planning activity by reviewing the
Internal Revenue Manual and lesson plans for screening procedures and reviewing a judgmental
sample of screened tax returns. We also evaluated the controls that are incorporated directly into
the EFDS to ensure that it was operating as intended during processing of tax returns for the
2010 Filing Season.




5
 The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                        Page 16
                    Expanded Access to Wage and Withholding Information
                     Can Improve Identification of Fraudulent Tax Returns



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Russell P. Martin, Director
Edward Gorman, Audit Manager
Van A. Warmke, Lead Auditor
Karen C. Fulte, Senior Auditor
Jeffrey R. Stieritz, Auditor
Arlene Feskanich, Information Technology Specialist




                                                                                    Page 17
                  Expanded Access to Wage and Withholding Information
                   Can Improve Identification of Fraudulent Tax Returns



                                                                       Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PRA:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC:
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI




                                                                               Page 18
                      Expanded Access to Wage and Withholding Information
                       Can Improve Identification of Fraudulent Tax Returns



                                                                                  Appendix IV

                                 Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Inefficient Use of Resources – Potential; $1.6 million over 5 years. This estimate is based on
    transferring 22,110 hours that the IRS expended screening tax returns with valid wages to
    additional compliance efforts, which could result in $329,439 in available funding from the
    transferred resources each year (see page 4).

Methodology Used to Measure the Reported Benefit:
Of the 151,776 Tax Year 2008 tax returns refiled (the reviewer of the tax return concluded it was
not fraudulent), we identified 96,178 (63 percent) tax returns that were selected for screening that
had valid wages reported. These included:
    •   70,865 tax returns refiled after screening.
    •   25,313 tax returns refiled after verification.
By reducing the volume of tax returns unnecessarily sent to screening, the IRS could transfer
22,110 hours expended screening tax returns with valid wages to other compliance activities.
To compute the inefficient use of resources, we:
    •   Matched Tax Year 2008 tax returns refiled either after screening or verification against
        the IRS Returns Transaction File to obtain the secondary Social Security Number, filing
        status, and reported wages on the tax return.
    •   Compared the wages reported on the 151,776 Tax Year 2008 tax returns refiled to the
        SSA W-2 file to identify the 96,178 (63 percent) tax returns that could have bypassed
        screening due to wages per the tax return being consistent with wages per the SSA W-2
        file (wages per tax return within 90 percent of wages reported per the SSA W-2 file).




                                                                                           Page 19
                         Expanded Access to Wage and Withholding Information
                          Can Improve Identification of Fraudulent Tax Returns



    •    Calculated the hours that could be transferred to other compliance activities (22,110)1 by
         multiplying the 326,398 tax returns screened in Calendar Year 2010 through
         April 17, 2010, by 63 percent and then dividing that amount by an average of 9 tax
         returns screened per hour.
    •    Computed the inefficient use of resources of $329,439 by multiplying the 22,110 hours
         that could be transferred to other compliance activities by $14.90 per hour (the hourly
         wage for a General Schedule-5 tax examiner).
    •    Calculated the inefficient use of resources total of $1.6 million over 5 years by
         multiplying annual available funding from transferred resources of $329,439 x 5 years.

Type and Value of Outcome Measure:
•   Revenue Protection – Potential; $560.4 million over 5 years. This estimate is based on
    $130.2 million in tax refunds associated with 48,887 prisoner Tax Year 2009 tax returns
    identified by the IRS in Calendar Year 2010 through March 24, 2010, less the $18.1 million
    in EITC claims that were stopped on 4,532 of the 48,887 prisoner tax returns, which were
    sent to pre-refund examination as a result of filters identifying the EITC as a probable
    erroneous claim (see page 9).

Methodology Used to Measure the Reported Benefit:
From the data provided by the IRS, we determined that 253,929 Tax Year 2009 tax returns
identified by the EFDS as prisoner tax returns through March 24, 2010, were not selected for
screening.
To compute the revenue protection, we:
    •    Matched the 253,929 prisoner tax returns against the IRS Returns Transaction File to
         identify the 225,851 prisoner tax returns that had a filing status other than married filing
         jointly.
    •    Matched the 225,851 prisoner tax returns that had a filing status other than married filing
         jointly against the IRS W-2 file which resulted in the identification of 48,887 prisoner tax
         returns that had no wage information reported by employers.
    •    Computed the potential revenue loss of $130.2 million by identifying the total refunds
         claimed for the 48,887 prisoner tax returns.




1
  Because of rounding, the 22,110 hours that could be transferred to verification will not equal the 326,398 tax
returns screened multiplied by 63 percent and divided by 9 tax returns screened per hour.
                                                                                                             Page 20
                        Expanded Access to Wage and Withholding Information
                         Can Improve Identification of Fraudulent Tax Returns



    •   Computed the reduction in potential revenue loss of $18.1 million in EITC claims that
        were stopped by identifying the 4,532 prisoner tax returns that were sent to pre-refund
        examination as a result of filters identifying the EITC as a probable erroneous claim.
    •   Calculated the revenue loss total of $560.4 million over 5 years by multiplying the annual
        loss ($130,150,118 – $18,065,269) x 5 years.

Type and Value of Outcome Measure:
•   Revenue Protection – Potential; $6.7 million in tax refunds related to 2,716 tax returns
    processed in Calendar Year 2010 through April 17, 2010 (see page 9).

Methodology Used to Measure the Reported Benefit:
We identified 2,716 tax returns processed in Calendar Year 2010 through April 17, 2010, and
sent to verification after screening that had refunds erroneously issued totaling $6.7 million.2
These included:
    •   2,451 tax returns that were sent to pre-refund examination as a result of filters identifying
        the EITC as a probable erroneous claim. For these cases, the overpayment amount in
        excess of the EITC was systemically refunded. A system change request was submitted
        to prevent the release of the refunds beginning in Processing Year 2011.
    •   265 tax returns processed on the CADE that had refunds erroneously issued. A system
        change was implemented to prevent future refunds from releasing.
To compute the revenue protection, we:
    •   Identified the issuance of potentially fraudulent refunds totaling $5.4 million for the
        2,451 screened tax returns that were sent to pre-refund examination.
    •   Identified the issuance of potentially fraudulent refunds totaling $1.4 million for the
        265 tax returns processed on the CADE.




2
 Because of rounding, the total amount of $6.7 million does not equal the 2 separately rounded amounts of
$5.4 million and $1.4 million when added together.
                                                                                                            Page 21
      Expanded Access to Wage and Withholding Information
       Can Improve Identification of Fraudulent Tax Returns



                                                    Appendix V

Management’s Response to the Draft Report




                                                          Page 22
Expanded Access to Wage and Withholding Information
 Can Improve Identification of Fraudulent Tax Returns




                                                    Page 23
                        Expanded Access to Wage and Withholding Information
                         Can Improve Identification of Fraudulent Tax Returns




                                                                                                      Attachment
Legislative Recommendation

RECOMMENDATION 1: As. put forth in the IRS Fiscal Year 2010 budget proposal, legislation is needed to
expand IRS access to NDNH wage information for tax administration purposes not limiting use of this information
to just those tax returns with a claim for the EITC.

CORRECTIVE ACTION
We agree with this recommendation. Legislation which will expand the use of data in the National Directory of New
Hires (NDNH) to returns without the Earned Income Tax Credit (EITC) was included in the President's Fiscal Year
2011 budget. On April 9, 2010, IRS met with Health & Human Services officials to brief them on the proposal. The
IRS will continue to follow the progress of the proposed legislation. We are analyzing the benefits the NDNH data
will have on the Taxpayer Assurance Program (TAP), and the potential for other compliance efforts.

IMPLEMENTATION DATE
N/A

RESPONSIBLE OFFICIAL
N/A

The Commissioner, Wage and Investment Division, should:

RECOMMENDATION 2: Obtain NDNH wage information for individuals claiming the EITC on ***2(f)*** tax
returns.

CORRECTIVE ACTION
We partially agree with this recommendation. We will examine the benefits of obtaining the NDNH information for
individuals claiming the EITC on ***2(f)*** tax returns, including the effect on cycle time and improved accuracy
of verification. If NDNH information expedites the scanning process and increases the accuracy of determinations,
IRS will consider a plan to request that data for ***2(f)****, and the associated process modifications.

IMPLEMENTATION DATE
January 15, 2012

RESPONSIBLE OFFICIAL
Director, Earned Income Tax Credit, Wage and Investment Division
Director, Accounts Management, Wage and Investment Division




                                                                                                        Page 24
Expanded Access to Wage and Withholding Information
 Can Improve Identification of Fraudulent Tax Returns




                                                    Page 25
